No. 20In the

Supreme Court of the United States
CHARLES W. HOUPT, United States of America, ex rel.,
Petitioner,
v.
WELLS FARGO BANK, N.A.,
Respondent.
On Petition for Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Nathan M. Olsen
Counsel of Record
Petersen Moss Hall & Olsen
485 E Street
Idaho Falls, Idaho
(208) 569-6363
nolsen@pmholaw.com
Counsel for Petitioners

298299

A
(800) 274-3321 • (800) 359-6859

QUESTIONS PRESENTED
Houpt brought a claim against Wells Fargo Bank under the Federal False Claims
Act. After the United States declined to intervene, Houpt proceeded with the case as
a Relator. At issue were allegations of false certifications by the bank when it
obtained a pre-liquidation SBA guarantee in May of 2010 and a failure of the bank
to repay the guarantee payment to the SBA when the bank received the liquidated
funds in March of 2014.
The District Court dismissed the case on summary judgment, by finding that a
three-year statute of limitations applied under 31 U.S.C. § 3731(b)(2). Houpt
appealed to the Ninth Circuit, which upheld the District Court’s interpretation of
the statute of limitations. The District Court also held that no disputed fact existed
as to whether the bank had reimbursed the SBA in March of 2014.
The questions presented are:
1.

Whether the Ninth Circuit erred in holding that a three year statute of
limitations applied when this Court has settled Circuit court conflicts
by finding that the ten year statute of limitations under 31 U.S.C. §
3731(b)(2) would apply for Relator pursued FCA claims where the
government has not intervened.

2.

Whether the bank’s failure to comply with any of the strict reporting
and accountability provisions of 13 CFR § 120.524(a) and (b)
documenting its liquidation process including the repayment of an
SBA guarantee payment raises material issues of fact as to whether it
engaged in fraudulent conduct.

i

RULE 29.6 STATEMENT
The appellant Charles W. Houpt is an individual.

ii

PARTIES TO THE PROCEEDING AND RELATED CASES
The parties to this proceeding are listed on the front cover.
Related cases to this proceeding are:


Charles W. Houpt, United States of America, ex rel. v. Wells Fargo Bank,
N.A., No. 19-35205, U.S. Court of Appeals for the Ninth Circuit. Judgment
entered April 6, 2020.



Charles W. Houpt, United States of America, ex rel. v. Wells Fargo Bank,
N.A., Case No. 4:17-cv-00377-CWD, U.S. District Court for the State of Idaho.
Judgment entered February 13, 2019.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................................................................... i
RULE 29.6 STATEMENT ............................................................................................. ii
PARTIES TO THE PROCEEDING AND RELATED CASES .................................... iii
TABLE OF CONTENTS ............................................................................................... iv
TABLE OF AUTHORITIES .......................................................................................... v
PETITION FOR A WRIT OF CERTIORARI ................................................................ 1
OPINIONS BELOW ...................................................................................................... 1
JURISDICTION............................................................................................................. 1
CONSTITUTIONAL PROVISION INVOLVED ........................................................... 1
INTRODUCTION .......................................................................................................... 2
STATEMENT OF THE CASE ....................................................................................... 5
REASONS FOR GRANTING THE PETITION .......................................................... 12
I.

THE NINTH CIRCUIT’S DECISION IS INAPOSITE TO
THIS COURT’S DECISION IN COCHISE CONSULTANCY
V. HUNT WHICH SETS THE APPLICABLE STATUTE OF
LIMITATIONS TO TEN YEARS ........................................................... 12

II.

THIS COURT SHOULD ADDRESS WHETHER A
DEFENDANT CAN SUBVERT LIABILITY UNDER AN FCA
CLAIM BY DISREGARDING STRICT ACCOUNTABILITY
STANDARDS FOR THE CERTIFICATION AND HANDLING
OF GOVERNMENT FUNDS ................................................................. 13

III.

A.

The FCA Was Intended to Enforce Strict Standards to
Prevent Fraudulent Conduct of Parties Receiving and
Using Taxpayer Funds ................................................................ 13

B.

The Ninth Circuit Errantly Overlooked the the SBA’s
Strict Accountability Requirements for SBA Guarantee
Payments ..................................................................................... 14

THIS APPEAL WOULD FIRM UP AND CLARIFY
RESPONSIBILITIES AND REQUIREMENTS FOR THE
ACCOUNTABILITY OF DEFENDANTS IN AN FCA ACTION ......... 19

CONCLUSION............................................................................................................. 19

iv

TABLE OF AUTHORITIES
Page(s)
Cases

Boise City v. Artesian Hot & Cold Water Co.,

4 Idaho 351, 39 P. 562 (1895) ............................................................................. 8

Cochise Consultancy, Inc. v. United States ex rel. Hunt,

139 S. Ct. 1507 (2019) ............................................................................... passim

Houpt v. Wells Fargo Bank. National Association,

160 Idaho 181, 370 P.3d 384 (2016). .................................................................. 8

Libby v. Pelham,

30 Idaho 614, 166 P. 575 (1917) ......................................................................... 8

McConnon v. Holden,

35 Idaho 75, 204 P. 656 (1922) ........................................................................... 8

Nash v. Meyer,

54 Idaho 283, 31 P.2d 273 (1934) ....................................................................... 8

Roos v. Belcher,

79 Idaho 473, 321 P.2d 210 (1958) ..................................................................... 8

Sec. P. Fin. Corp. v. Bishop,

109 Idaho 25, 704 P.2d 357 (Ct. App.1985) ........................................................ 8

Trees v. Kersey,

138 Idaho 3, 56 P.3d 765 (2002) ......................................................................... 8

Statutes and Other Authorities
U.S. Const. Art. III § 1 ................................................................................................... 2
28 U.S.C. § 1254(1) ........................................................................................................ 1
31 U.S.C. § 3729 ............................................................................................................. 2
31 U.S.C. § 3730(b)(1) .................................................................................................... 9
31 U.S.C. § 3731(b)(2) ........................................................................................ 2, 11, 12
13 C.F.R. § 120.453 ...................................................................................................... 15
13 C.F.R. § 120.520(2)(c)................................................................................................ 6
13 C.F.R. § 120.524(a)............................................................................................ 17, 18
13 C.F.R. § 120.524(b)............................................................................................ 17, 18

v

13 C.F.R. §§ 120.520-120.554 ...................................................................................... 15
FCA § 3729(a)(1)(D) ..................................................................................................... 13
FCA § 3731(b) .............................................................................................................. 12
F.R.R.A.P. § 41(a)........................................................................................................... 1
F.R.R.A.P. § 56(e) ......................................................................................................... 10
IRCP 30(b)(6) ............................................................................................................... 14
S. Rep. No. 99-345 ........................................................................................................ 13

vi

PETITION FOR A WRIT OF CERTIORARI
Charles W. Houpt, United States of America, ex. Rel., (Houpt) respectfully petitions
for a writ of certiorari to review the judgment of the United States Court of Appeals
for the Ninth Circuit in this case.
OPINIONS BELOW
The Idaho District Court’s “Memorandum Decision and Order” in 4:17-cv-00377CWD (District Court Decision) dismissing Houpt’s complaint may be found at
Appendix B.
The Memorandum by the Ninth Circuit under review affirming the District Court
Decision in 19-35205 (Ninth Circuit Decision) is unreported, and may be found at
Appendix A.
JURISDICTION
The Ninth Circuit issued its decision on April 6, 2020. It issued its formal Mandate
pursuant to F.R.A.P § 41(a) on April 28, 2020. This Court has jurisdiction under 28
U.S.C. § 1254(1). This Writ of Certiorari is timely pursuant to this Court’s March
19, 2020, Order extending deadlines to 150 days from the date of the lower court
judgment.
CONSTITUTIONAL PROVISION INVOLVED
The judicial power of the United States, shall be vested in one Supreme Court, and
in such inferior courts as the Congress may from time to time ordain and establish.
The judges, both of the supreme and inferior courts, shall hold their offices during

1

good behaviour, and shall, at stated times, receive for their services, a
compensation, which shall not be diminished during their continuance in office.

U.S. Const. Art. III sec. 1.
INTRODUCTION
This appeal affords this Court to review the apparent misinterpretation by
the Ninth Circuit of recent settled authority in this Court which held that the
applicable statute of limitations on a claim brought by a relator under the “Federal
False Claims Act” 31 U.S.C. § 3729 et al. (FCA) where the government elects not to
intervene is ten years. This Court settled conflicting Circuit court authority on this
point in Cochise Consultancy, Inc. v. United States ex rel. Hunt, 139 S. Ct. 1507
(2019). However, the Ninth Circuit Decision effectively recreates this conflict by reinterpreting 31 U.S.C. § 3731(b)(2) to restrict such claims to three years. This
appeal will also allow this Court to review whether a defendant in an FCA claim
can excuse its failures to comply with regulatory accounting of funds received from
the government.
The underlying history of the development of facts in this case wherein Houpt
discovered wrong doing of the Defendant/Respondent Wells Fargo Bank, National
Association (Wells Fargo Bank) has a long history. Over a lengthy, costly and
painful twelve year period beginning in approximately in 2008, Wells Fargo Bank
subjected Houpt to foreclosure, bankruptcy, state court litigation proceedings, over
the collection of a pre-liquidation U.S. Small Business Administration (SBA)
guarantee payment for Houpt’s alleged default of approximately $67,000 on a 1993

2

SBA guaranteed note on Houpt’s commercial property and residence in Idaho Falls,
Idaho, that had a value of approximately$350,000. (ER 351-52) In the end, Houpt
and his wife Gail Houpt lost everything as a result of the bank’s conduct, having to
completely start over at the time they should have been retiring. Conversely, Wells
Fargo Bank benefitted by receiving approximately $206,000 in benefit from the
voluntary and stipulated sale of Houpt’s commercial property and residence, among
other funds received for personal property that had been seized and sold by the
bank. (ER 353-54)
During this grueling process, Houpt discovered that Wells Fargo Bank had
proceeded with the foreclosure of his property under a false certification to the SBA
that the bank had standing under the original Deed of Trust and therefore had
wrongfully initiated a non-judicial foreclosure. (ER 374-91) This was a fact that was
ultimately confirmed by the Idaho Supreme Court. (ER 354) Houpt also learned
that Wells Fargo Bank had collected its guarantee payment of approximately
$56,000 from the SBA “pre-liquidation,” or before proceeding with the foreclosure of
Houpt’s property, and that after Wells Fargo Bank received this payment in May of
2010, all communications between the bank and the SBA ceased. (Id.) Wells Fargo
Bank did not follow one of the SBA’s strict regulatory requirements and written
instructions for collecting on the guarantee, either by work-out or by foreclosure or
litigation only if necessary. (Id.) Finally, Houpt learned that Wells Fargo Bank had
no proof that the bank had ever repaid the $56,000 guarantee to the SBA after the
bank had received the proceeds from the sale of Houpt’s property. (Id.)

3

As such, Houpt initiated this FCA action as relator on behalf of the United States to
pursue damages and penalties for Well Fargo Bank’s fraudulent conduct under the
available causes of action and remedies under the FCA. (ER 391-97) The United
States declined to intervene in the case, but allowed Houpt to proceed with the
claims. (ER 397) The parties filed cross motions for summary judgment. (Id.) The
District of Idaho Magistrate Court dismissed all of Houpt’s claims before allowing
Houpt to depose a witness that Wells Fargo Bank didn’t disclose until it filed its
motion for summary judgment, and well after the initial disclosure deadlines. (ER
041-42) In dismissing his claims, Houpt argues that the Court overlooked or
disregarded key facts supporting the FCA claim as well as applicable regulations
and statutory provisions, and thus erred under the heightened standard of a
summary ruling. The Magistrate Court also ruled that Houpt’s claims were barred
by a three year statute of limitations.
Houpt appealed the Magistrate Court’s decision to the Ninth Circuit, noting that
this Court had resolved the question with regard to statute of limitations in Cochise

Consultancy, and that the Magistrate Court had entirely overlooked Wells Fargo
Bank’s failure to comply with the strict regulatory requirements in accounting for
its activities in liquidating the property, and most particularly the alleged repayment of the SBA guarantee payment. In so doing, Houpt noted the apparent
conflict between the lack of any of the required documentation and receipt of the
repayment with the vague ex post statement provided by a previously undisclosed
SBA employee in October of 2018.

4

In its Memorandum Decision denying the appeal, the Ninth Circuit did not adopt
the clear holding in Cochise Consultancy that the applicable statute of limitations is
ten years. The Ninth Circuit also refused the acknowledge the failure of Wells Fargo
Bank to provide any documentation of its liquidation efforts and the alleged
repayment of the SBA guarantee payment. The essence of the Ninth Circuit
Decision is that it recreates the conflict on the statute of limitations settled by this
Court and establishes a precedent for the subversion of established rules of
accountability of government funds and thus engendering fraudulent conduct.
STATEMENT OF THE CASE
In 1987 the Relator/Appellant Charles W. Houpt (Houpt) entered into a promissory
note (Note) with then bank American Bank of Commerce (ABC) of $327,000 for the
purchase of a commercial property located in Idaho Falls, Idaho. (ER 326, 351-52)
The loan was guaranteed by the SBA under its 7(a) program and secured by a Deed
of Trust with ABC as the named beneficiary, Houpt as the grantor, and First
American Title Company (FATCO) as the trustee. (ER 326-27, 351-52)
Through a series of bank mergers, the Note was allegedly and ultimately
transferred to Wells Fargo Bank in 2004. (ER 326) However, the Deed of Trust was
not transferred or assigned to the bank, and ABC remained as the named and
recorded beneficiary until September of 2012. (ER 326) In approximately November
of 2008, Wells Fargo Bank notified the SBA that Houpt was allegedly in default of
the Note in the amount of approximately $67,000 and requested authorization to
proceed with the liquidation of Houpt’s commercial property to satisfy the Note. (ER

5

138) The SBA subsequently sent a letter of specific instruction to Wells Fargo Bank
dated November 12, 2008, on how to proceed with the liquidation of the property,
including a number of detailed requirements to report, plan and obtain approval for
incurring legal fees in excess of $10,000 in accordance with the SBA regulations
under 13 CFR § 120.520 (2)(c). (ER 269-272, 275-84)
Instead of proceeding with the liquidation of the security on Houpt’s Note, Wells
Fargo Bank made the extraordinary request to the SBA for a pre- liquidation
payment of the SBA guarantee. (ER 140, 182) On May 3, 2010, the SBA granted
Wells Fargo Bank’s request and made a pre-liquidation guarantee payment to the
bank in the amount of $56,240.86. (ER 183-84) The guarantee payment from the
SBA to Wells Fargo Bank is documented and evidenced in the record both by a wire
transfer sheet and an accounting or ACH form. (ER 173, 205) Neither Wells Fargo
Bank nor the SBA has any record of communication with regard to the Note or
actions of the bank pertaining to the liquidation process after the pre-liquidation
payment in May of 2010, including the required monthly reports, liquidation plan,
litigation plan, wrap-up report and any documentation or evidence of a repayment
of the pre-liquidation payment of the SBA guarantee. (ER 66, 86, 144-150, see also
159-218 – consisting of Wells Fargo Bank’s entire file on the loan.) After Wells
Fargo Bank received the payment in May of 2010, all communication between the
SBA and the bank ceased. (Id.)
In October of 2010, Wells Fargo Bank proceeded with the initiation of a non-judicial
foreclosure of Houpt’s property under the Deed of Trust – fully aware that it (Wells

6

Fargo Bank) was not the named beneficiary of the Deed of Trust, and therefore no
right to proceed with the foreclosure. (ER 95, 334-35) The bank’s action ultimately
precipitated several years of litigation beginning in the bankruptcy court, and
subsequently in the Idaho State District Court, the Idaho Supreme Court, and back
down to the District Court where the case was ultimately resolved in 2017. (ER 32627)
Wells Fargo Bank was ultimately paid $139,500.45 which consisted of the proceeds
of a voluntary and stipulated sale of the Houpt’s property during the course of the
state litigation. (ER 353-54) The Idaho Supreme Court upheld the state district
court’s dismissal of Houpt’s wrongful foreclosure claim, but only because the Court
held that Idaho did not recognize a claim for an “attempted” wrongful nonjudicial
deed of trust foreclosure and that Houpt’s voluntary sale of the property prior to the
completion of the foreclosure made Houpt’s wrongful foreclosure claim moot. (ER
330-31) However, the Court held that Wells Fargo Bank could not benefit for its
“wrongful initiation” of the non-judicial foreclosure under the deed of trust,
including the tens of thousands of dollars it was claiming in attorneys fees and
court costs, finding that:
We also agree with the district court that Wells Fargo Bank was required to
record the assignment before it initiated foreclosure proceedings against
Houpts. IC § 45-1505. The trustee may foreclose a trust deed by
advertisement and sale under this act if: (1) The trust deed, any assignments
of the trust deed by the trustee or the beneficiary and any appointment of a
successor trustee are recorded in mortgage records in the counties in which
the property described in the deed is situated.

7

Here, Wells Fargo Bank was not the recorded beneficiary before September 4,
2012. Thus, when Wells Fargo Bank initiated the foreclosure in 2010 it had
no right to do so. Roos v. Belcher, 79 Idaho 473, 479, 321 P.2d 210, 213 (1958)
(holding that the terms of the trust deed foreclosure statutes must be strictly
complied with): see also Sec. P. Fin. Corp. v. Bishop, 109 Idaho 25, 28, 704
P.2d 357, 360 (Ct.App.1985) (holding that a failure to comply with the
foreclosure statutes invalidates a foreclosure sale). The subsequent
bankruptcy and other proceedings Wells Fargo Bank sought fees for in
district court all derived from Wells Fargo Bank's initial improper initiation
of foreclosure. By virtue of the Stipulated Sale, Houpts do not have an action
against Wells Fargo Bank for wrongful foreclosure, however, to allow Wells
Fargo Bank to recover fees for proceedings that resulted from its own bad act
would run "contrary to every principle of justice and right." Boise City v.
Artesian Hot & Cold Water Co., 4 Idaho 351, 362-63, 39 P. 562, 566 (1895)
(Sullivan, L dissenting); see also, e.g., Trees v. Kersey,138 Idaho 3, 13, 56
P.3d 765, 775 (2002) (noting that rights based on violation of law will never
be enforced by the courts); Nash v. Meyer, 54 Idaho 283, 295, 31 P.2d 273,
278 (1934) (noting that the court will not support a cause of action that
"appears to arise ex turpi causa, or [by] the transgression of a positive law"
(internal quotation marks omitted) Libby v. Pelham, 30 Idaho 614,621, 166 P.
575, 577 (1917).
Wells Fargo Bank failed to comply with section 45-1505 by initiating
foreclosure without first recording its assignment. It will not now be heard to
complain that it should be allowed attorney fees for proceedings that derived
from its unlawful initiation of foreclosure. McConnon v. Holden, 35 Idaho 75,
81, 204 P. 656, 657 (1922) (“The principle of public policy is this: Ex dolo malo
non oritur actio. No court will lend its aid to a man who founds his cause of
action upon an immoral, or an illegal act." (quoting Holman v. Johnson,
(1775) Cowp. pt. 1, p. 341, 98 Eng. Reprint, 1120)).
Thus, the district court should have eliminated all fees and costs (including
those related to bankruptcy proceedings and other matters) incurred by Wells
Fargo before September 4, 2012.

Houpt v. Wells Fargo Bank. National Association, 160 Idaho 181, 194-95, 370
P.3d 384, 397-98 (2016). (ER 335-36)
During and after the state litigation, Houpt made several records requests to the
SBA and Wells Fargo Bank to ascertain whether the bank had complied with SBA’s
strict requirements for a pre-liquidation guarantee payment, and whether the bank

8

had ever reimbursed the SBA for the payment. (ER 066-83) On December 10, 2014,
and again on October 12, 2016, SBA Attorney-Advisor Carol J. Hulme confirmed
that all of the SBA records pertaining to the Houpt’s loan had been provided. (ER
080, 082) This again confirmed there was no record of any further communication
between the SBA and the bank after May of 2010, including documentation or proof
of the repayment of the pre-liquidation guarantee payment. (Id.)
On September 11, 2017, Houpt filed a complaint under seal as a relator on behalf of
the United States under the FCA. (ER 369-397) On November 14, 2017, the United
States filed a notice of election not to intervene pursuant to 31 U.S.C. § 3730(b)(1)
which then allowed Houpt to maintain the action as relator. (ER 399)
On October 3, 2018, Houpt filed a Motion for Partial Summary Judgment with
supporting affidavits by Houpt and his counsel Nathan M. Olsen. (ER 087-338) On
October 23, 2018, Wells Fargo Bank filed a cross motion for summary judgment,
with supporting declarations of bank representative Gary Glorfield and Vanessa K.
Piccioni, who is purportedly an employee of the SBA. (ER 084-85, 400) Ms. Piccioni
was not disclosed by Wells Fargo Bank prior to this point, and her name does not
appear anywhere in the SBA records regarding the loan. (ER 066-67) Ms. Piccioni
refers to no specific documentation or record in her declaration, nor does she refer to
any dates or information pertaining to the Houpt SBA Note and guarantee other
than the year 2014. (ER 066-67, 084-85)
Little is known about how Ms. Piccioni became a witness in this case and her
contact with Wells Fargo Bank. (ER 084) Her signed declaration was a pleading

9

admittedly drafted by the bank’s attorney, Trevor Hart. (ER 052) Houpt filed an
F.R.P § 56(e) motion on November 13, 2018, requesting for additional discovery
before having to respond to Wells Fargo Bank’s motion including an opportunity to
depose Ms. Piccioni. (ER 060-62, 400-01) The United States objected to Houpt’s
motion for the Court to allow a subpoena to be issued to Ms. Piccioni for her
deposition. (ER 401) At the hearing before the Magistrate Court on the summary
judgment and discovery motions, the attorney for bank Trevor Hart made the
following statement with regard to the defendant’s reasoning for failing to disclose
Ms. Viccioni in the initial disclosures:
The first thing I did after – after the complaint was filed, I called up Mr.
Woychick (the US Attorney) and said, “Hey, did the SBA get repaid?” He said,
“Sure. Yeah, they did.” And it’s my understanding that’s why the – why the
government declined to intervene. It’s my understanding that Mr. Olsen
never contacted SBA or Mr. Woychick and said, “Did the SBA get repaid on
the guarantee?” I’ll also note that Mr. Woychick – I don’t want to restate his
argument here, but my understanding is that admissions of counsel are
binding on the parties. And if Mr. Woychick said the SBA got -- was -- the
guarantee was repaid, I think that’s prima facie, Your Honor.
Now, I don’t have the calendar up here in front of me. It’s my understanding
when I --- my recollection is that when we got the motion for summary
judgment, I called up --- and in fact, I think I asked Mr. Woychick earlier in
the case if he had any statement from the SBA that could show whether the
loan was repaid. And I think he sent that to us. I don’t recall seeing Ms.
Piccioni’s name at that time.
But when we finally got around to having the defendant’s motion summary
judgment, I called up Mr. Woychick and said “I’ve got to do something. Now I
need something from the SBA that says the loan was repaid. This is getting
ridiculous.” So at that time, I think Mr. (sic) Piccioni --- or Mr. Woychick gave
me Ms. Piccioni’s name, and I sent him --- I believe I sent the
I prepared a
short affidavit, got it approved by Mr. Woychick, and it was sent to Ms.
Piccioni to sign. (ER 053-53)

10

Neither Mr. Hart nor Mr. Woychick were disclosed as potential witnesses or persons
with knowledge in Wells Fargo Bank’s initial disclosures (which were never
provided.) (ER 063) Neither Mr. Woychick nor Mr. Hart are listed in the SBA
records pertaining to the Houpt SBA guaranteed note provided by the SBA in its
response to information requests. (ER 065)
On February 13, 2019, the Magistrate Court issued a Memorandum Decision and
Order dismissing Houpt’s FCA claims, finding that the complaint had been filed
after the applicable statute of limitations, and that there were no disputed facts
that the SBA pre-liquidation guarantee payment had been repaid by Wells Fargo
Bank and that the bank had made false certifications to the SBA with regard to the
pre- liquidation SBA guarantee payment. (ER 005-42)(Appx. B)
Houpt appealed, and on April 6, 2020, the Ninth Circuit issued an unpublished
decision where it held this Court in Cochise Consultancy “repeatedly acknowledged
that § 3731(b)(2) provides a three year limitations period.” (Appx. A ft. 2) The Ninth
Circuit also held that “the lack of formal documentation detailing Well Fargo’s
payment is insufficient to refute the uncontroverted testimony of both Wells Fargo’s
and the SBA’s representatives.” (Appx. A ft. 3)

11

REASONS FOR GRANTING THE PETITION
I.

THE NINTH CIRCUIT’S DECISION IS INAPOSITE TO THIS COURT’s
DECISION IN COCHISE CONSULTANCY V. HUNT WHICH SETS THE
APPLICABLE STATUTE OF LIMITATIONS TO TEN YEARS.

The Ninth Circuit completely misread this Court’s opinion in Cochise Consultancy,
which expressly addresses the question of how to “calculate the limitations period
for qui tam suits in which the United States does not intervene.” Cochise

Consultancy, 139 S.Ct. at 1510. After engaging in a detailed analysis of the FCA
statute of limitation provisions in § 3731(b), this Court upheld the Eleventh
Circuit’s interpretation of the statute that under § 3731(b)(2), that, because a
relator is “not an official of the United States,” in an FCA action where the
government does not intervene the statute of limitations is ten years. Cochise

Consultancy, 139 S.Ct. at 1514.
Even though this Court resolved the conflicts on this point in the Circuit courts, the
Ninth Circuit has issued a decision which recreates that conflict. The Ninth Circuit
made no differentiation between this Court’s holding in Cochise Consultancy and
the facts in this case. Indeed, the applicable facts are the same. Houpt is a relator in
a case where the government elected not to intervene. This Court needs to affirm
the ten year statute of limitations that it established in Cochise Consultancy.

12

II.

THIS COURT SHOULD ADDRESS WHETHER A DEFENDANT CAN
SUBVERT LIABILITY UNDER AN FCA CLAIM BY DISREGARDING
STRICT ACCOUNTABILITY STANDARDS FOR THE CERTIFICATION
AND HANDLING OF GOVERNMENT FUNDS.
A.

The FCA Was Intended to Enforce Strict Standards to Prevent
Fraudulent Conduct of Parties Receiving and Using Taxpayer Funds.

The worthwhile policies and intentionally broad scope of the FCA are summarized
by Congress as follows:
The FCA is intended to reach all fraudulent attempts to cause the
Government to pay out sums of money or to deliver property or services.
Accordingly, a false claim may take many forms, the most common being a
claim for goods or services not provided, or provided in violation of the
contract terms, specification, statute, or regulation. Likewise, each and every
claim submitted under a contract, loan guarantee, or other agreement which
was originally obtained by means of false statements or other corrupt or
fraudulent conduct, or in violation of any statute or applicable regulation,
constitutes a false claim.
S.Rep. No. 99-345 p. 9 (citations omitted) (emphasis added).
Section 3729(a)(1)(D) of the FCA establishes a prohibited practice that is
particularly relevant to the claim that Wells Fargo Bank has not accounted for nor
repaid the guarantee payment after receiving the proceeds from the sale of Houpt’s
property. (Appx. C) As stated, “any person who has possession, custody, or control of
property or money used, or to be used, by the Government and knowingly delivers,
or causes to be delivered, less than all of that money or property” is subject to treble
damages and or fines. Id. §§(D) and (G)(Appx. C).

13

B.

The Ninth Circuit Errantly Overlooked the the SBA’s Strict
Accountability Requirements for SBA Guarantee Payments.

As affirmed at its IRCP § 30(b)(6) deposition taken on October 20, 2016, Wells Fargo
Bank applied to the SBA to put the Houpts’ SBA guaranteed loan into "liquidation
status" and thus allowed the bank to act on behalf of the SBA to collect on SBA's
guarantee. From that point forward, the bank had a contractual and regulatory
responsibility to carry out the liquidation (if necessary) of the SBA guaranteed
property in accordance with SBA's specific oversight, instructions and rules.
Additionally, Wells Fargo Bank made the extraordinary request to receive the
guarantee payment pre-liquidation, a practice that SBA banned for loans approved
after May 14, 2007. (ER 281) The SBA nevertheless issued a set of elaborate and
extensive requirements for the payment of guarantees prior to the liquidation of the
property for loans that predated May 14, 2007. (ER 275-317.)
In this case, as relator, Houpt alleged and provided facts to the Court showing that
no documented proof exists that Wells Fargo Bank ever repaid the $56,256 preliquidation payment to the SBA from the proceeds it received from the sale of
Houpt’s property. If that is indeed true, then the bank has defrauded the SBA,
subjecting itself to the remedies provided under the FCA. Facts supporting this
claim include the complete lack of documentation from either Wells Fargo Bank or
the SBA proving the payment was ever made.
The Ninth Circuit errantly disregarded all of these established facts, opting instead
to rely entirely upon the vague, undocumented and tardily disclosed declaration of

14

SBA employee Vanessa Piccioni. Ms. Piccioni’s statement that Wells Fargo Bank
“repaid SBA all funds associated with the above-referenced loan in 2014, whereupon
SBA marked the loan Paid in Full” is not only vague, but is contradicted by another
SBA employee Ms. Hulme who verified on multiple occasions that all of the records
had been provided in response to the Freedom of information Request. (ER 080-81,
084-84) This meant that there was no record proving that the SBA guarantee was
“repaid in 2014” by the bank, let alone any communication between the SBA and
the bank after May of 2010. (See again ER 082-83)
The Ninth Circuit erred in holding that “the lack of formal documentation detailing
Well Fargo’s payment” was “insufficient” to overcome a summary judgment motion
(See ER-026)(Appx. A) In making such a holding, the Ninth Circuit disregarded the
strict regulatory requirements for collecting on a pre-liquidation SBA payment,
including the penalties for failing to comply with such requirements.
Under 13 CFR § 120.453, as a preferred lender or “PLP lender,” Wells Fargo Bank
was obligated to comply with all of the standards set forth in “Subpart E” of the
regulation, consisting of standards for “Servicing, Liquidation and Debt Collection
Litigation of 7(a) and 504 Loans (13 CFR §§ 120.520 - 120.554). (Appx. C) Sections
§§ 120.535 through 120.540 contain specific and mandatory documentation and
reporting requirements by a lender who has received a pre-liquidation guarantee
payment on how it must proceed in the shoes of the SBA to collect on the guarantee
through foreclosure of the property. (Id.)

15

This process begins with a pre-approved and detailed litigation plan with monthly,
quarterly reports, pre-approval of any significant litigation, a site visit, attempt to
compromise, any modifications to the litigation plan, and many other such
requirements complete with a mandatory final “wrap-up” report. Id.
This would also of course include actual documentation of any repayment of a
guarantee post liquidation. In fact, as admitted by Mr. Glorfield in his deposition,
Wells Fargo Bank had no required documentation showing “proof” of repayment
under the required SBA form. (ER 151) The SBA has enacted very specific
requirements and instructions with regard to the transmitting or transfer of
payments, including the following:
Submitting Payments to SBA: All remittances should be forwarded to SBA
electronically using www.Pay.gov. It is not necessary to register in order to
transmit payment. To access the forms for these payments, click on SBA
Payments to the right of the screen. The required form is entitled SBA Form
172 - SBA Transaction Report on Loan Serviced by Lender. The form
automatically defaults to Principal and Interest Only. Be sure to change this
selection to "principal only" if source of funds is liquidation proceeds.
Complete sections 2 through 11 as required. Please take note of 11c if
expenses have been deducted from the gross sale proceeds. If you have
deducted expenses from recovery, you must submit a CPC tab package to the
Center. In section 12, the gross principal balance should be reflected as the
last date on which activity has been recorded. The system will automatically
populate the Lender and SBA share. The Calculate Fields Tab at the bottom
of the form allows you to verify the figures and funds that should be remitted
to SBA. Select "Continue". The next screen requires the ACH Bank account
information including the routing and account number of the lending
institution from which this payment will be drawn. After all screens have
been completed, you will receive a confirmation of the payment being
remitted. Keep this in your records as proof of payment.
(ER 278 emphasis added)

16

The regulations explicitly state that a lender’s failure to comply with the SBA Loan
Program Requirements, the failure to disclose material facts to the SBA regarding a
guaranteed loan, a misrepresentation of a material fact to the SBA of a guaranteed
loan, and/or the failure to use required SBA forms, among other enumerated errors
“entitles” the “SBA to recover any moneys paid on the guarantee plus interest from
the Lender responsible for those events.” 13 CFR § 120.524(a) and (b)(Appx. C).
A wrap-up report is particularly important in that it would have contained among
other things:
An appropriately detailed narrative identifying how and when collateral was
liquidated and the gross recovery, expenses and net amount applied on the
loan. Identifying any remaining items of collateral which are being
recommended for abandonment and provide justification.
A detailed summary of all disbursements, payments, recoveries, and
expenses during the liquidation process. In addition, you will need to submit
a summary explanation with copies of invoices on all CPC expenses that have
NOT already been reimbursed. All recoveries from liquidation, compromise,
or any other sources must either have been shown on transcript of account
when SBA guaranty purchased or have been sent to SBA Denver Finance
Center along with a copy of SBA Transmittal Form 172...If not already
provided, a copy of site visits reports or waivers.
(ER 317)
In other words, the wrap-up report is critical because it holds the lender
accountable to its conduct during the liquidation process, including in particular
actual documented proof that the SBA guarantee was repaid. In this case, there is
no dispute that this essential “wrap up” report, let alone any other documentation
after May of 2010, was not provided by Wells Fargo Bank to the SBA with regard to
the guarantee payment pertaining to the Houpt Note.

17

Again, by rule, failure of the lender to comply with the strict liquidation rules
warrants a return of the guarantee payment plus interest. 13 CFR § 120.524(a) and
(b). As Wells Fargo Bank’s attorney Mr. Hart testified during the hearing in this
matter, even as late as when Houpt filed his motion for summary judgment in
October of 2018, the bank admittedly had no actual proof that the SBA guarantee
payment had been paid.
Moreover, in addition to the lack of documented proof, there clearly remains
questions of fact as to whether the SBA payment was repaid, which if true
constitutes fraud compounded by numerous false statements and representations –
many of which were made under oath. The fact that neither the bank nor the SBA
has any specific documentation of a repayment to the SBA -- including in the
statement provided by Ms. Piccioni – easily infers the distinct possibility that the
bank pocketed the money from the proceeds of the sale of the Houpt property and
never repaid the SBA. Wells Fargo Bank has not come up with any plausible
explanation for why it has not been able to produce a wire transfer sheet and an
accounting or ACH form of the payment as required by SBA rule and procedure.

18

III.

THIS APPEAL WOULD FIRM UP AND CLARIFY RESPONSIBILITIES
AND REQUIREMENTS FOR THE ACCOUNTABILITY OF DEFENDANTS
IN AN FCA ACTION.

The Ninth Circuit Decision effectively nullifies regulatory accountability and
reporting requirements by parties handling SBA funds (or any government funds
for that matter) so long as the party can find a well-placed contact in the
government to cover up its misdeeds. This kind of liability avoidance is an issue
worth addressing by this Court.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Nathan M. Olsen

Counsel of Record

Petersen Moss Hall & Olsen
485 E Street
Idaho Falls, Idaho
(208) 569-6363
nolsen@pmholaw.com

Counsel for Petitioners

19

APPENDIX A

APPENDIX B

APPENDIX C

U.S.C. Title 31 - MONEY AND FINANCE

8/23/19, 2:46 PM

31 VS.C.
United States Code, 2017 Edition
Title 31 - MONEY AND FINANCE
SUBTITLE III - FINANCIAL MANAGEMENT
CHAPTER 37 - CLAIMS
SUBCHAPTER III - CLAIMS AGAINST THE UNITED STATES GOVERNMENT
Sec. 3729 - False claims
From the U.S. Government Publishing Office, www.gpo.gov

§3729.False claims
(a) LlABILFTY FOR CERTAIN ACTS.—
(1) IN GENERAL.—Subjectto paragraph (2), any person who—
(A) knowingly presents, or causes to be presented, a false or fraudulent claim for payment or
approval;
(B) knowingly makes, uses, or causes to be made or used, a false record or statement material
to a false or fraudulent claim;
(C) conspires to commit a violation of subparagraph (A), (B), (D), (E), (F), or (G);
(D) has possession, custody, or control of property or money used, or to be used, by the
Govemment and knowingly delivers, or causes to be delivered, less than all of that money or
property;
(E) is authorized to make or deliver a document certifying receipt of property used, or to be
used, by the Government and, intending to defraud the Govemment, makes or delivers the
receipt without completely knowing that the information on the receipt is true;
(F) knowingly buys, or receives as a pledge of an obligation or debt, public property from an
officer or employee of the Government, or a member of the Armed Forces, who lawfully may
not sell or pledge property; or
(G) knowingly makes, uses, or causes to be made or used, a false record or statement material
to an obligation to pay or transmit money or property to the Government, or knowingly conceals
or knowingly and improperly avoids or decreases an obligation to pay or transmit money or
property to the Government,
is liable to the United States Govemment for a civil penalty of not less than $5,000 and not more
than $10,000, as adjusted by the Federal Civil Penalties Inflation Adjustment Act of 1990 (28
U.S.C. 2461 note; Public Law 104-410 -1-), plus 3 times the amount of damages which the
Government sustains because of the act of that person.
(2) REDUCED DAMAGES.—Ifthe court finds that(A) the person committing the violation of this subsection fumished officials of the United
States responsible for investigating false claims violations with all information known to such
person about the violation within 30 days after the date on which the defendant first obtained the
information;
(B) such person fully cooperated with any Government investigation of such violation; and
(C) at the time such person furnished the United States with the information about the
violation, no criminal prosecution, civil action, or administrative action had commenced under
this title with respect to such violation, and the person did not have actual knowledge of the
existence of an investigation into such violation,
https://www,govinfo.gov/content/pkg/USCODE-2017-titl831/html/USCODE-2017-title31-subtitlelll-chap37-subchaplll-sec3729.htm

Page 1 of 4

U.S.C. Title 31 - ^40NEY AND FINANCE

8/23/19, 2:46 PM

the court may assess not less than 2 times the amount of damages which the Government sustains
because of the act of that person.
(3) COSTS OF CIVIL ACTIONS.—Aperson violating this subsection shall also be liable to the United
States Govemment for the costs of a civil action brought to recover any such penalty or damages.
(b) DEFiNiTioNS.—Forpurposes of this section—
"knowing" and "knowingly"—
(1) the terms
(A) mean that a person, withrespect to information—
(i) has actual knowledge of the information;
(ii) acts in deliberate ignorance of the truth or falsity of the information; or
(iii) acts in reckless disregard of the truth or falsity of the information; and
(B) require no proof of specific intent to defraud;
(2)theterm"claim"—
(A) means any request or demand, whether under a contract or otherwise, for money or
property and whether or not the United States has title to the money or property, that—
(i) is presented to an officer, employee, or agent of the United States; or
(ii) is made to a contractor, grantee, or other recipient, if the money or property is to be
spent or used on the Government's behalf or to advance a Government program or interest,
and if the United States Government—
(I) provides or has provided any portion of the money or property requested or
demanded; or
(II) will reimburse such contractor, grantee, or other recipient for any portion of the
money or property which is requested or demanded; and
(B) does not include requests or demands for money or property that the Govemment has
paid to an individual as compensation for Federal employment or as an income subsidy with no
restrictions on that individual's use of the money or property;
"obligation" means an established duty, whether or not fixed, arising from an
(3) the term
express or implied contractual, grantor-grantee, or licensor-licensee relationship, from a fee-based
or similar relationship, from statute or regulation, or from the retention ofany overpayment; and
"material" means having a natural tendency to influence, or be capable of
(4) the term
influencing, the payment or receipt of money or property.
(c) EXEMPTION FROM DiscLOSURE.—Anyinformation furnished pursuant to subsection (a)(2) shall
be exempt from disclosure under section 552 of title 5.
(d) ExcLUSiON.—Thissection does not apply to claims, records, or statements made under the
Internal Revenue Code of 1986.
(Pub. L. 97-258, Sept. 13, 1982,96 Stat. 978; Pub. L. 99-562, §2, Oct. 27, 1986,100 Stat. 3153;
Pub. L. 103-272, §4(f)(l)(0),July 5, 1994,108 Stat. 1362; Pub.L. 111-21, §4(a), May 20,2009,
123 Stat. 1621.)
HlSTORICAL AND REVISION NOTES

https;//www.govlnfo.gov/content/pkg/USCODE-2017-title31/htmVUSCODE-2017-tltle31-subtitlelll-chap37-subchaplll-sec3729.htm

Page 2 of 4

U.S.C. Title 31 - MONEY AND FINANCE

8/23/19, 2:47 PM

31 VS.C.
United States Code, 2017 Edition
Title 31 - MONEY AND FINANCE
SUBTITLE III - HNANCIAL MANAGEMENT
CHAPTER37-CLAIMS
SUBCHAFTER III - CLAIMS AGAINST THE UNITED STATES GOVERNMENT
Sec. 3730 - Civil actions forfalse claims
From the U.S. Govemment Publishing Office, www.gpo.gov

§3730.Civil actions for false claims
(a) RESPONSIBILmES OFTHE ATTORNEY GENERAL.—TheAttorney General diligently shall investigate
a violation under section 3729. If the Attomey General finds that a person has violated or is violating
section 3729, the Attomey General may bring a civil action under this section against the person.
(b) ACTIONS BY PRIVATB PERSONS.-(I) A person may bring a civil action for a violation of section
3729 for the person and for the United States Govemment. The action shall be brought in the name
of the Government. The action may be dismissed only if the court and the Attomey General give
written consent to the dismissal and their reasons for consenting.
(2) A copy of the complaint and written disclosure of substantially all material evidence and
information the person possesses shall be served on the Government pursuant to Rule 4(d)(4)]- of the
Federal Rules of Civil Procedure. The complaint shall be filed in camera, shall remain under sealfor
at least 60 days, and shall not be served on the defendant until the court so orders. The Govemment
may elect to intervene and proceed with the action within 60 days after it receives both the complaint
and the material evidence and information.
(3) The Govemment may, for good cause shown, move the court for extensions of the time during
which the complaint remains under seal under paragraph (2). Any such motions may be supported by
affidavits or other submissions in camera. The defendant shall not be required to respond to any
complaint filed under this section until 20 days after the complaint is unsealed and served upon the
defendant pursuant to Rule 4 of the Federal Rules of Civil Procedure.
(4) Before the expiration of the 60-day period or any extensions obtained under paragraph (3), the
Govemment shall—
(A) proceed with the action, in which case the action shall be conducted by the Government; or
(B) notify the court that it declines to take over the action, in which case the person bringing the
action shall have the right to conduct the action.

(5) When a person brings an action under this subsection, no person other than the Government
may intervene or bring a related action based on the facts underlying the pending action.
(C) RlGHTS OFTHE PAKTIBS TO QUI TAM ACTIONS.-(I) If the Govemment proceeds with the action, it
shall have the primary responsibility for prosecuting the action, and shall not be bound by an act of
the person bringing the action. Such person shall have the right to continue as a party to the action,
subject to the limitations set forth in paragraph (2).
(2)(A) The Govemment may dismiss the action notwithstanding the objections of the person
initiating the action if the person has been notified by the Government of the filing of the motion and
the court has provided the person with an opportunity for a hearing on the motion.
(B) The Govemment may settle the action with the defendant notwithstanding the objections of
the person initiating the action if the court determines, after a hearing, that the proposed settlement is
https://www.govinfo.gov/content/pkg/USCODE-2017-title31/html/USCODE-2017-title31-subtltlelll-chap37-subchaplll-sec3730.htm

Page 1 of 7

U.S.C. Tltle 31 - MONEY AND FINANCE

8/23/19, 2:47 PM

fair, adequate, and reasonable under all the circumstances. Upon a showing of good cause, such
hearing may be held in camera.
(C) Upon a showing by the Govemment that unrestricted participation during the course of the
lidgation by the person initiating the action would interfere with or unduly delay the Govemment's
prosecution of the case, or would be repetitious, irrelevant, or for purposes of harassment, the court
may, in its discretion, impose limitations on the person's participation, such as—
(i) limiting the number of witnesses the person may call;
(ii) limiting the length ofthe testimony of such witnesses;
(iii) limiting the person's cross-examination of witnesses; or
(iv) otherwise limiting the participation by the person in the litigation.
(D) Upon a showing by the defendant that unrestricted participation during the course of the
litigation by the person initiating the action would be for purposes of harassment or would cause the
defendant undue burden or unnecessary expense, the court may limit the participation by the person
in the litigation.
(3) If the Govemment elects not to proceed with the action, the person who initiated the action
shall have the right to conduct the action. If the Government so requests, it shall be served with
copies of all pleadings filed in the action and shall be supplied with copies of all deposition
transcripts (at the Govemment's expense). When a person proceeds with the action, the court,
without limiting the status and rights of the person initiating the action, may nevertheless permit the
Govemment to intervene at a later date upon a showing of good cause.
(4) Whether or not the Govemment proceeds with the action, upon a showing by the Govemment
that certain actions of discovery by the person initiating the action would interfere with the
Govemment's investigation or prosecution of a criminal or civil matter arising out of the same facts,
the court may stay such discovery for a period of not more than 60 days. Such a showing shall be
conducted in camera. The court may extend the 60-day period upon a further showing in camera that
the Govemment has pursued the criminal or civil investigation or proceedings with reasonable
diligence and any proposed discovery in the civil action will interfere with the ongoing criminal or
civil investigation or proceedings.
(5) Notwithstanding subsection (b), the Govemment may elect to pursue its claim through any
alternate remedy available to the Government, including any administrative proceeding to determine
a civil money penalty. If any such altemate remedy is pursued in another proceeding, the person
initiating the action shall have the same rights in such proceeding as such person would have had if
the action had continued under this section. Any finding offact or conclusion of law made in such
other proceeding that has become final shall be conclusive on all parties to an action under this
section. For purposes of the preceding sentence, a finding or conclusion is final if it has been finally
determined on appeal to the appropriate court of the United States, if all time for filing such an
appeal with respect to the finding or conclusion has expired, or if the finding or conclusion is not
subject to judicial review.
(d) AWARD TO Qui TAM PLAINTIFF.-(I) If the Govemment proceeds with an action brought by a
person under subsection (b), such person shall, subject to the second sentence of this paragraph,
receive at least 15 percent but not more than 25 percent of the proceeds of the action or settlement of
the claim, depending upon the extent to which the person substantially contributed to the prosecution
of the action. Where the action is one which the court finds to be based primarily on disclosures of
specific information (other than information provided by the person bringing the action) relating to
allegations or transactions in a criminal, civil, or administrative hearing, in a congressional,
administrative, or Govemment -1- Accounting Office report, hearing, audit, or investigation, or from
https://www.govinfo,gov/content/pkg/USCODE-2017-tltle31/html/USCODE-2017-title31-subtitlelll-chap37-subchaplll-sec3730.htm

Page 2 of 7

U.S.C. Title 31 - MONEY AND FINANCE

8/23/19, 2:47 PM

the news media, the court may award such sums as it considers appropriate, but in no case more than
10 percent of the proceeds, taking into account the significance of the infonnation and the role of the
person bringing the action in advancing the case to litigation. Any payment to a person under the fiirst
or second sentence of this paragraph shall be made from the proceeds. Any such person shall also .
receive an amount for reasonable expenses which the court finds to have been necessarily incurred,
plus reasonable attomeys' fees and costs. All such expenses, fees, and costs shall be awarded against
the defendant.
(2) If the Govemment does not proceed with an action under this section, the person bringing the
action or settling the claim shall receive an amount which the court decides is reasonable for
collecting the civil penalty and damages. The amount shall be not less than 25 percent and not more
than 30 percent of the proceeds of the action or settlement and shall be paid out of such proceeds.
Such person shall also receive an amount for reasonable expenses which the court finds to have been
necessarily incurred, plus reasonable attomeys' fees and costs. All such expenses, fees, and costs
shall be awarded against the defendant.
(3) Whether or not the Govemment proceeds with the action, if the court finds that the action was
brought by a person who planned and initiated the violation of section 3729 upon which the action
was brought, then the court may, to the extent the court considers appropriate, reduce the share of the
proceeds of the action which the person would otherwise receive under paragraph (1) or (2) of this
subsection, taking into account the role of that person in advancing the case to litigation and any
relevant circumstances pertaining to the violation. If the person bringing the action is convicted of
criminal conduct arising from his or her role in the violation of section 3729, that person shall be
dismissed from the civil action and shall not receive any share of the proceeds of the action. Such
dismissal shall not prejudice the right of the United States to continue the action, represented by the
Department of Justice.
(4) If the Government does not proceed with the action and the person bringing the action
conducts the action, the court may award to the defendant its reasonable attorneys' fees and expenses
if the defendant prevails in the action and the court finds that the claim of the person bringing the
action was clearly frivolous, clearly vexatious, or brought primarily for purposes of harassment.
(e) CERTAIN ACTIONS BARRED.-(I) No court shall havejurisdiction over an action brought by a
former or present member of the armed forces under subsection (b) of this section against a member
of the armed forces arising out of such person's service in the armed forces.
(2)(A) No court shall have jurisdiction over an action brought under subsection (b) against a
Member of Congress, a member of the judiciary, or a senior executive branch official if the action is
based on evidence or information known to the Government when the action was brought.
"senior executive branch official" means any officer or
(B) For purposes of this paragraph,
employee listed in pamgraphs (1) through (8) of section 101(f) of the Ethics in Govemment Act of
1978(5U.S.C.App.).
(3) In no event may a person bring an action under subsection (b) which is based upon allegations
or transactions which are the subject of a civil suit or an administrative civil money penalty
proceeding in which the Government is already a party.
(4)(A) The court shall dismiss an action or claim under this section, unless opposed by the
Government, if substantially the same allegations or transactions as alleged in the action or claim
were publicly disclosed—
(i) in a Federal criminal, civil, or administrative hearing in which the Govemment or its agent is
a party;
(ii) in a congressional, Government Accountability Office, or other Federal report, hearing,
audit, or investigation; or
https://www.govinfo.gov/content/pkg/USCODE-2017-title31/html/USCODE-2017-title31-subtitlelll-chap37-subchaplll-sec3730.htm

Page 3 of 7

U.S.C. Title 31 - MONEY AND FINANCE

8/23/19, 2:47 PM

(iii) from the news media,
unless the action is brought by the Attorney General or the person bringing the action is an
original source of the information.
"original source" means an individual who either
(i) prior to a
(B) For purposes ofthis paragraph,
Govemment
subsection
under
disclosure
the
to
voluntarily
has
the
disclosed
(e)(4)(a),
public
information on which allegations or transactions in a claim are based, or (2) who has knowledge that
is independent ofand materially adds to the publicly disclosed allegations or transactions, and who
has voluntarily provided the information to the Govemment before filing an action under this section.
(f) GOVERNMENT NOT LlABLE FOR CERTAIN ExpENSES.—TheGovernment is not liable for expenses
which a person incurs in bringing an action under this section.
(g) FEES AND EXPENSES TO PREVAILING DEFENDANT.—Incivil actions brought under this section by
the United States, the provisions of section 2412(d) of title 28 shall apply.
(h) RELIEF FROM RETALIATORY ACTIONS.—
(1) IN GENERAL.—Anyemployee, contractor, or agent shall be entitled to all relief necessary to
make that employee, contractor, or agent whole, if that employee, contractor, or agent is
discharged, demoted, suspended, threatened, harassed, or in any other manner discriminated
against in the tenns and conditions of employment because oflawful acts done by the employee,
contractor, agent or associated others in furtherance of an action under this section or other efforts
to stop 1 or more violations of this subchapter.
(2) RELiEp.—Reliefunder paragraph (1) shall include reinstatement with the same seniority
status that employee, contractor, or agent would have had butfor the discrimination, 2 times the
amount of back pay, interest on the back pay, and compensation for any special damages sustained
as a result ofthe discrimination, including litigation costs and reasonable attorneys' fees. An action
under this subsection may be brought in the appropriate district court of the United States for the
relief provided in this subsection.
(3) LIMITATION ON BRINGING CIVIL ACTION.—Acivil action under this subsection may not be
brought more than 3 years after the date when the retaliation occurred.
(Pub. L. 97-258, Sept. 13, 1982,96 Stat. 978; Pub. L. 99-562, §§3,4,Oct. 27,1986,100 Stat. 3154,
3157; Pub. L. 100-700, §9, Nov. 19, 1988,102 Stat. 4638; Pub.L. 101-280, §10(a),May 4,1990,
104 Stat. 162; Pub. L. 103-272, §4(f)(l)(P),July 5,1994, 108 Stat. 1362; Pub. L. 111-21, §4(d),
May 20,2009,123 Stat. 1624;Pub.L. 111-148, title X, §101040(2), Mar. 23,2010, 124Stat.901;
Pub. L. 111-203, title X, §1079A(c), July 21,2010, 124 Stat. 2079.)
HlSTORICAL AND REVISION NOTES
Revised Section
3730(a)
3730(b)(l)

Source (U.S. Code)
31:233.
31:232(A),(B)(lesswords
between 3d and 4th commas).

3730(b)(2)

31:232(C)(lst-3d sentences, 5th
sentence proviso).
31:232(C)(4th sentence, 5th
sentence less proviso).
31;232(C)(last sentence), (D).

3730(b)(3)
3730(b)(4)

Source (Statutes at Large)
R.S. §3492.
R.S. §3491(A)-(E); restated Dec. 23,
1943, ch. 377, §1,57 Stat. 608; June
11,1960, Pub.L. 86-507, §1(28),
(29),74Stat.202.

https://www.govinfo.gov/content/pkg/USCODE-2017-title31/html/USCODE-2017-title31-subtitlelll-chap37-subchaplll-sec3730.htm

Page 4 of 7

eCFR —
Cods of Federal Regulations

8/23/19, 2:37 PM

ELECTRONIC CODE OF FEDERAL REGULATIONS
e-CFR data is current as of August 21, 2019
Title 13 -> Chapter l -^ Part 120 -»Subpart D
Title 13: Business Credit and Assistance
PART 120—BUSINESSLOANS

Subpart D—Lenders
Contents
§120.400 Loan Guarantee Agreements.
PARTICIPATION CRITERIA

§120.410 Requirements forall participating Lenders.
§120.411 Preferences.
§120.412 Other services Lenders may provide Borrowers.
'§120.413
Advertisement of relationship with SBA.
PARTICIPATING LENDER FlNANCINGS

§120.420
§120.421
§120.422
§120,423
§120.424
§120.425
§120,426
period?
§120.427
§120.428

Definitions.
Which Lenders may securitize?
Are all securitizations subject to this subpart?
Which 7(a) loans may a Lender securitize?
What are the basic conditions a Lender must meet to securitize?
What are the minimum elements that SBAwill require before consenting to a securitization?
What action will SBA take if a securitizer transfers the subordinated tranche prior to the termination of the holding
Will SBA approve a securitization application from a capital impaired Securitizer?
What happens to a securitizer's other PLP responsibilities if SBA suspends its PLP approval privilege?

OTHER CONVEYANCES

§120.430
§120.431
§120.432
§120.433
§120.434
§120,435

What conveyances are covered by §§120.430through 120.435?
Which Lenders may sell, sell participations in, or pledge 7(a) loans?
Under what circumstances does this subpart permit sales of, or sales ofparticipating interests in, 7(a) loans?
What are SBA's other requirements for sates and sales of participating interests?
What are SBA's requirements for loan pledges?
Which foan pledges do not require notice to or consent by SBA?

DELEGATED AUTHORITY CRITERIA

§120.440 How does a 7(a) Lender obtain delegated authority?
§120.441 [Reserved]
'iF)'REI:;ERRE6''l.ENDERS PROGRAM
(PLP)'

§'1'20.450 What is th'e Preferred Lenders Program?
; §,120.451. [Reserved]
§120.452 What are the requirements of PLP loan processing?
§120:463 Re'spOnsibilities of PLP Lenders for servicing and liquidating 7(a) loans.

i

SBASUPERVISED LENDERS

§120.460 What are SBA's additional requirements for SBA Supervised Lenders?
https://gov.ecfr.io/cgi-bln/retrieveECFR?gp=&SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&n=sp13.1.120.d&r=sSUBPART&ty=HTML

Page 1 of 20

eCFR —
Code of Federal Regulatlons

8/23/19, 2:37 PM

(1) Has the continuing ability to evaluate, process, close, disburse, service, liquidate and litigate SBA loans. This includes the
ability to develop and analyze complete loan packages. SBA may consider the experience and capability of Lender's management
and staff.
(2) Has satisfactory SBA performance (as defined in §120.410(a)(2));
(3) Is in compliance with SBA Loan Program Requirements {e.g., Form 1502 reporting, timely payment ofall fees to SBA);
(4) Has completed to SBA's satisfaction all required corrective actions;
(5) Whether Lender is subject to any enforcement action, order or agreement with a regulator or the presence of other
regulatory concems as determined by SBA; and
(6) Whether Lender exhibits other risk factors (e.g., has rapid growth; low SBAactivity; SBA loan volume; Lender, an officer or
director is under investigation or indictment).
(b) Delegated authority decisions are made by the appropriate SBA official in accordance with Delegations ofAuthority, and
are final.
(c) If delegated authority is approved or renewed, Lender must execute a Supptemental Guarantee Agreement, which will
specify a term not to exceed two years. SBA may grant shortened renewals based on risk or any of the other delegated authority
criteria. Lenders with less than 3 years of SBA lending experience will be limited to a term of 1 year or less.
[82FR39503,Aug.21,2017]

•t Back to Top
§120.441 [Reserved]
t Back to Top
PREFERRED LENDERS PROGRAM (PLP)

t Back to Top
§120.450 What is the Preferred Lenders Program?
Under the Preferred Lenders Program (PLP), designated Lenders process, close, service, and liquidate SBA guaranteed
loans with reduced requirements for documentation to and prior approval by SBA.
i Back to Top
§120.451 [Reserved]
i Back to Top
§120.452 What are the requirements of PLP loan processing?
(a) Subparts A and B of this part govern the making of PLP loans, except for the following:
(1) Certain types of businesses, loans, and loan programs are not eligible for PLP, as detailed in published SBA policy and
procedures.
(2) A Lender may not make a PLP business loan which reduces its existing credit exposure for any Borrower, except in cases
where an interim loan(s) has been made for other than real estate construction purposes to the Borrower which was approved by
the Lender within 90 days of receipt ofthe issuance fo a subsequent PLP toan number.
(3) SBAwill not guarantee more than the specified statutory percentage ofany PLP loan.
(b) A PLP Lender notifies SBAof its approval ofa PLP loan by submitting to SBA's loan processing center appropriate
documentation signed by two of the PLP's authorized representatives. SBAwill attach the SBA guarantee and notify the PLP
Lender ofthe SBA loan number (if it does not identify a problem with etigibility, and funds are available).
https://gov.ecfr.lo/cgi-bin/retrleveECFR?gp=&SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&n=sp13.1.120.d&r=SUBPART&ty=HTML

Page 9 of 20

eCFR —
Code of Federal Regulations

8/23/19, 2:37 PM

(c) The PLP Lender is responsibte for all PLP loan decisions regarding eligibility (including size) and creditworthiness. The
PLP Lender is also responsible for confirming that all PLP loan closing decisions are correct, and that it has complied with all
requirements of law and SBA regulations.

t Back to Top
§120.453 Responsibilities of PLP Lenders for serviclng and liquidating 7(a) loans.
Servicing and Liquidation responsibilities for PLP Lenders are set forth in subpart E ofthis part.
[72FR18360,Apr.12,2007]

t Back to Top
SBA SUPERVISED LENDERS

t Back to Top
§120.460 What are SBA's additional requirements for SBA Supervised Lenders?
(a) In general. In addition to complying with SBA's requirements for SBA Lenders, an SBA Supervised Lender must meet the
additional requirements set forth in this regulation and the SBA Supervised Lender regulations that follow.
(b) Operations and internal controls. Each SBA Supervised Lender's board ofdirectors (or management, ifthe SBA
Supervised Lender is a division of another company and does not have its own board of directors) must adopt an internal control
policy which provides adequate direction to the institution in establishing effective control over and accountability for operations,
programs, and resources. The internal control policy must, at a minimum:
(1) Direct management to assign responsibility for the internal control function (covering financial, credit, credit review,
collateral, and administrative matters) to an officer or officers of the SBA Supervised Lender;
(2) Adopt and set forth procedures for maintenance and periodic review of the internal control function; and
(3) Direct the operation of a program to review and assess the SBA Supervised Lender's assets. The asset review program
policies must specify the following:
(i) Loan, loan-related asset, and appraisal review standards, Including standards for scope of selection for review (of any such
loan, loan-related asset or appraisal) and standards for work papers and supporting documentation;
(ii) Asset quality classification standards consistent with the standardized classification systems used by the Federal Financial
Institution Regulators;
(iii) Specific internal control requirements for the SBA Supervised Lender's major asset categories (cash and investment
securities), lending, and the issuance of debt;
(iv) Specific internal control requirements for the SBA Supervised Lender's oversight of Lender Service Providers; and
(v) Standards for training to implement the asset review program.
[73FR75512,Dec.11,2008]
t Back to Top
§120.461 What are SBA's additional requirements for SBA Supervised Lenders concerning records?
(a) Report flling. All SBA Supervised Lender-specific reports (including all SBLC-only reports) must be filed with the
appropriate Office ofCapital Access official in accordance with Delegations ofAuthority.
(b) Maintenance ofrecords. An SBASupervised Lender must maintain at its princjpal business office accurate and current
financial records, including books of accounts, minutes of stockholder, directors, and executive committee meetings, and atl
documents and supporting materials relating to the SBA Supervised Lender's transactions. However, securities held by a
custodian pursuant to a written agreement are exempt from this requirement.
https://gov.ecfr.io/cgi-bin/retrieveECFR?gp=&SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&n=sp13.1.120.d&r=SUBPART&ty=HTML

Page 10 of 20

eCFR —
Code of Federal Regulations

8/23/19, 2:38 PM

ELECTRONIC CODE OF FEDERAL REGULATIONS
e-CFR data is current as of August 21, 2019
Title 13 -»Chapter l -^ Part 120 -r Subpart E
Title 13; Business Credit and Assistance
PART 120—BUSINESSLOANS

Subpart E—Servicing,Liquidation and Debt Collection Litigation of 7(a) and 504 Loans
Contents
SBA'S PURCHASE OF A GUARANTEED PORTION

§12(,),^20i f3yrcitaas6;0f7(a).loanigyarantees.
§120.521 What interest rate applies after SBA purchases its guaranteed portion?
accrued interest to the Lender or Registered Hoider when SBA purchases the guaranteed portion.
§120.522 Payment of "earliest
the
is
uncured payment default"?
What
§120,523
released
SBA
from liabitity on its guarantep?
is
§^^2^->When
of
Deferment
payment.
§i26;536
§120,531 Extension of maturity.
§120.532 What is a ioary^pratorium?
§^gQ;53S .Standardsfor'Lghdferand CDCIoan servicing, loan liquidation and debt collection litigation.
§120.536 Servicing and liquidation actions that require the prior written consent of SBA,
•§120.540 Liquidation and litigation
plans,
§120.541 Time for approval by SBA.
§;12Q.542 Payment by SBA of legal fees and other expenses.
§120.545 What are SBA's policies concerning the liquidation ofcollateral and the saie ofbusiness loans and physical disaster
assistance toans, physical disaster business loans and economic injury disaster loans?
§120.546 Loan asset sales.
HOMESTEAD PROTECTION FOR FARMERS

§120.550
§120,551
§120.552
§120.553
§120.554

What is homestead protection for farmers?
Who is eligible for homestead protection?
Lease.
AppealConflict of laws.

t Back to Top
SBA'S PURCHASE OF A GUARANTEED PORTION

t Back to Top
§120.520 Purchase of 7(a) loan guarantees.
(a) When SBA will purchase—(-i)For loans approved on or after May 14, 2007, A Lender may demand in writing that SBA
honor its guarantee if the Borrower is in default on any installment for more than 60 calendar days (or less if SBA agrees) and the
default has not been cured, provided all business personal property securing the defaulted SBA loan has been liquidated. A
Lender may also submit a request for purchase of a defaulted 7(a) loan when a Borrower files for federal bankruptcy once a
period of at least 60 days has elapsed since the last full installment payment. If a Borrower cures a default before a Lender
requests purchase by SBA, the Lender's right to request purchase on that default tapses. SBAconsiders liquidation of business
personal property collateral to be completed when a Lender has exhausted all prudent and commercially reasonable efforts to
collect upon these assets. In addition, SBA, in its sole discretion, may purchase the guaranteed portion of a loan at any time
https://gov.ecfr.io/cgi-bin/text-idx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&node=sp13,1.120.e&rgn=div6

Page 1 of10

eCFR—
Code of Federal Regulatlons

8/23/19, 2:38 PM

whether in default or not, with or without the request from a Lender.
(2) Forloans approved before May 14, 2007. The regulations applicable to the time that a Lender may make demand for
purchase that were in effect immediately prior to this date will govern such loans.
(b) Documentation forpurchase. SBA will not purchase its guaranteed portion of a loan from a Lender unless the Lender has
submitted to SBA documentation that SBA deems sufficient to allow SBA to determine whether purchase of the guarantee is
warranted under §120.524.
(c) Purchase ofloans soldin Secondary Market. When the Lender has sold the guaranteed portion ofa loan in the Secondary
Market, under subpart F ofthis part, Lenders must perform all necessary servicing and liquidation actions for such loan even after
SBA has purchased the guaranteed portion of such loan from a Registered Holder (as that term is defined in §120.600(i)). In the
event that SBA purchases its guaranteed portion of such a loan from the Registered Holder, Lenders must provide SBAwith a
loan status report within 15 business days of such purchase. This report should include but not be limited to, a status report on the
borrower and current condition of the collateral, plans for any type of loan workout or loan restructuring, existing liquidation
activities including the sale of loan collateral, or the status of ongoing foreclosure proceedings. The report should accompany
requested documentation that SBAdeems sufficient to be able to review the Lender's administration ofthe loan under §120.524. A
Lender's failure to provide sufficient documentation may constitute a material failure to comply with SBA requirements under
§120.524(a)(1), and may lead to initiation of an action for recovery from the Lender of all or some of the moneys SBA paid to a
Registered Holder on a guarantee. SBAwill also evaluate the Lender's continued participation in the Secondary Market and may
restrict further sale of guaranteed portions into the Secondary Market until SBA determines that the Lender has provided sufficient
documentation for purchases.
(d) A/o waiver of SBA's rights. Purchase by SBA of the guaranteed portion of a loan, or of a portion of SBA's guarantee of a
loan, either through a negotiated agreement with a Lender or otherwise, does not waive any of SBA's rights to recover from the
responsible Lender any money paid on the guarantee based upon the occurrence of any of the events set forth in §120.524(a) in
connection with that loan.
[72FR18360,Apr.12,2007]
i. Back to Top
§120.521 What interest rate applies after SBA purchases its guaranteed portion?
When SBA purchases the guaranteed portion of a fixed interest rate loan, the rate of interest remains as stated in the note.
On loans with a fluctuating interest rate, the interest rate that the Borrower owes will be atthe rate in effect at the time of the
earliest uncured payment default, or the rate in effect at the time of purchase (where no default has occurred).
t. Back to Top
§120.522 Payment of accrued interest to the Lender or Registered Holder when SBA purchases the guaranteed portion.
(a) Rate ofinterest. If SBA purchases the guaranteed portion from a Lender or from a Registered Holder (if sold in the
Secondary Market), it will pay accrued interest at:
(1) The rate in the note if it is a fixed rate loan; or
(2) The rate in effect on the date of the earliest uncured payment default, or ofSBA's purchase (ifthere has been no default).
(b) Payment to Lender—C\)Forloans approved on orafterMay 14, 2007. SBAwill pay up to a maximum of 120 days interest
Lender
at the time of guarantee purchase.
to a
(2) For loans approved before May 14, 2007. The regulations applicable to the amount of interest that SBA will pay to a
Lender upon loan default that were in effect immediately prior to this date will govem such loans.
(c) Payment to Registered Holder. SBAwill pay a Registered Holder all accrued interest up to the date of payment.
[61 FR 3235, Jan. 31, 1996, as amended at 72 FR18361, Apr. 12, 2007]
i BacktoTop

https://gov.ecfr.io/cgI-bin/text-ldx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&nnc=true&node=sp13.1,120.e&rgn=div6

Page 2 of10

eCFR —
Code of Federal Regulattons

8/23/19, 2:38 PM

"earliest uncured
payment default"?
§120.523 What is the
The earliest uncured payment default is the date of the earliest failure by a Borrower to pay a regular installment of principal
and/or interest when due. Payments made by the Borrower before a Lender makes its request to SBA to purchase are applied to
the earliest uncured payment default. Ifthe installment is paid in full, the earliest uncured payment default date will advance to the
next unpaid installment date. tf a Borrower makes any payment after the Lender makes its request to SBA to purchase, the
earliest uncured payment default date does not change because the Lender has already exercised its right to request purchase.
t BacktoTop
§120.524 When is SBA released from liability on its guarantee?
(a) SBA is released from liability on a loan guarantee (in whole or in part, within SBA's exclusive discretion), if any of the
events below occur:
(1) The Lender has failed to comply materially with any Loan Program Requirement for 7(a) loans.
(2) The Lender has failed to make, close, service, or liquidate a loan in a prudent manner;
(3) The Lender's improper action or inaction has placed SBA at risk;
(4) The Lender has failed to disclose a material fact to SBA regarding a guaranteed loan in a timely manner;
(5) The Lender has misrepresented a material fact to SBA regarding a guaranteed loan;
(6) SBA has received a written request from the Lender to terminate the guarantee;
(7) The Lender has not paid the guarantee fee within the period required under SBA rutes and regulations;
(8) The Lender has faited to request that SBA purchase a guarantee within 180 days after maturity of the loan. However, if the
Lender is conducting liquidation or debt collection litigation in connection with a toan that has matured, SBAwill be released from
its guarantee only ifthe Lender fails to request that SBApurchase the guarantee within 180 days after the completion ofthe
liquidation or debt coltection litigation;
(9) The Lender has failed to use required SBA forms or exact electronic copies; or
(10) The Borrower has paid the loan in full.
(b) If SBAdetermines, at any time, that any ofthe events set forth in paragraph (a) ofthis section occurred in connection with
that loan, SBA is entitled to recover any moneys paid on the guarantee plus interest from the Lender. In the exercise of its rights,
SBA may utilize all legal means available, including offset and judicial remedies.
(c) If the Lender's loan documentation or other information indicates that one or more of the events in paragraph (a) of this
section occurred, SBA may undertake such investigation as it deems necessary to determine whether to honor or deny the
guarantee, and may withhold a decision on whether to honor the guarantee until the completion of such investigation.
(d) Any information provided to SBA by a Lender or other party will not prejudice, or be construed as effecting any waiver of,
SBA's right to deny liability for a guarantee if one or more of the events listed in paragraph (a) of this section occur.
(e) Unless SBA provides written notice to the contrary, the Lender remains responsible for all loan servicing ad liquidation
actions until SBA honors its guarantee in full.
[61 FR 3235, Jan. 31, 1996, as amended at72 FR 18361, Apr, 12, 2007; 82 FR 39503,Aug.21,2017]
i Back to Top
§120.530 Deferment of payment.
SBA may agree to defer payments on a business loan for a stated period oftime, and use such other methods as it considers
necessary and appropriate to help in the successful operation of the Borrower. This policy applies to all business loan programs,
including 504 loans.

https;//gov.ecfr.io/cgl-bln/text-idx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&node=sp13.1.120.e&rgn=div6

Page 3 of10

Code of Federal Regulatlons
eCFR —

8/23/19, 2:38 PM

i Back to Top
§120.531 Extension of maturity.
SBA may agree to extend the maturity of a loan for up to 10 years beyond its original maturity if the extension will aid in the
orderly repayment of the loan.

t Back to Top
§120.532 What is a loan Moratorium?
SBAmay assume a Borrower's obligation to repay principal and interest on a loan by agreeing to make the payments to the
Lender on behalf of the Borrower under terms and conditions set by SBA. This relief is called a "Moratorium." Complete
information concerning this program may be obtained from local SBA offices.
t BacktoTop
§120.535 Standards for Lender and CDC loan servicing, loan llquidation and debt collection litigation.
(a) Se/v/ce using prudent lending standards. Lenders and CDCs must service 7(a) and 504 loans in their portfolio no less
diligently than their non-SBA portfolio, and in a commercially reasonable manner, consistent with prudent lending standards, and
in accordance with Loan Program Requirements. Those Lenders and CDCs thatdo not maintain a non-SBAIoan portfolio must
adhere to the same prudent lending standards for loan servicing followed by commercial lenders on loans without a government
guarantee.
(b) Liquidate using prudent lending standards. Lenders and Authorized CDC Llquidators must liquidate and conduct debt
collection litigation for 7(a) and 504 loans in their portfolio no less diligently than fortheir non-SBA portfolio, and in a prompt, costeffective and commercially reasonable manner, consistent with prudent lending standards, and in accordance with Loan Program
Requirements and with any SBA approval of either a liquidation or litigation plan or any amendment of such a plan. Lenders and
CDCs that do not maintain a non-SBA loan portfolio must adhere to the same prudent lending standards followed by commercial,
lenders that liquidate loans without a government guarantee. They are also to operate in accordance with Loan Program
Requirements and with any SBA approval of either a liquidation or litigation plan or any amendment of such a plan.
(c) Absence ofactual or apparent conflict ofinterest. A CDC must not take any action in the liquidation or debt collection
litigation of a 504 loan that would result in an actual or apparent conflict of interest between the CDC (or any employee of the
CDC) and any Third Party Lender, associate of a Third Party Lender, or any person participating in a liquidation, foreclosure or
loss mitigation action.
(d) SBA rights to take over servicing or liquidation. SBA may, in its sole discretion, undertake the servicing, liquidation and/or
litigation of any 7(a) or 504 loan. If SBA elects to service, liquidate and/or litigate a loan, it will notify the relevant Lender or CDC In
writing, and, upon receiving such notice, the Lender or CDC must assign the Loan Instruments to SBA and provide any needed
assistance to allow SBA to service, liquidate and/or litigate the loan. SBA will notify the Borrower of the change in servicing. SBA
may use contractors to perform these actions.
[72FR18361,Apr,12,2007]
i BacktoTop
§120.536 Servicing and liquidation actions that require the prior written consent of SBA.
(a) Actions by Lenders and CDCs. Except as otherwise provided in a Supplemental Guarantee Agreement with a Lender or
an Agreement with a CDC, SBA must give its prior written consent before a Lenderor CDC takes any ofthe following actions:
(1) Increases the principal amount of a loan above that authorized by SBA at loan origination.
(2) Confers a Preference on the Lender or CDC or engages in an activity that creates a conflict of interest.
(3) Compromises the principal balance of a loan.
(4) Takes title to any property in the name of SBA.

https://gov.ecfr.io/cgi-bin/text-idx?SID=3b9e8388386f1adffc48cb63cc6fe6aa&mc=true&node=sp13.1.120.e&rgn=div6

Page 4 of10

Code of Federal Regulatlons
eCFR —

8/23/19, 2:38 PM

(5) Takes title to environmentally contaminated property, or takes over operation and control of a business that handles
hazardous substances or hazardous wastes.
(6) Transfers, sells or pledges more than 90% ofa loan.
(7) Takes any action for which prior written consent is required by a Loan Program Requirement.
(b) Actions by CDCs only (other than PCLP CDCs). SBA must give its prior written consent before a CDC, other than a PCLP
CDC, takes any of the following actions with respect to a 504 loan:

(1) Alters substantially the terms or conditions of any Loan Instrument.
(2) Releases collateral having a cumulative market value in excess of 10 percent of the Debenture amount or $10,000,
whichever is less.

(3) Accelerates the maturity of the note.
(4) Compromises or releases any claim against any Borrower or obligor, or against any guarantor, standby creditor, or any
other person that is contingently liable for moneys owed on the loan.
(5) Purchases or pays offany indebtedness secured by the property that serves as collateral for a defaulted 504 loan, such
as payment ofthe debt(s) owed to a lien holder or lien holders with priority over the lien securing the loan.
(6) Accepts a workout plan to restructure the material terms and conditions ofa loan that is in default or liquidation.
(7) Takes any action for which prior written consent is required by a Loan Program Requirement.
(c) Documentation requirements, For all servicing/liquidation actions not requiring SBA's prior written consent, Lenders and
CDCs must document the justifications for thelr decisions and retain these and supporting documents in their file for future SBA
review to determine if the actions taken by the Lender or CDC were prudent, commercially reasonabte, and complied with all Loan
Program Requirements.
[72FR18361.Apr.12,2007]
t Back to Top
§120.540 Liquidation and litigation plans.
(a) SBA oversight, SBA may monitor or review liquidation through the review of liquidation plans which all Authorized CDC
Liquidators and certain Lenders must submit to SBAfor approval prior to undertaking liquidation, and through liquidation wrap-up
reports which Lenders must submit to SBAat the completion of liquidation. SBAwill monitor debt collection litigation, such as
judicial foreclosures, bankruptcy proceedings and other state and federal insolvency proceedings, through the review of litigation
plans, as set forth in this section.
(b) Llquidation plan. An Authorized CDC Liquidator and a Lender for a loan made under its authority as a CLP Lender must,
prior to undertaking any liquidation, submit a written proposed liquidation plan to SBA and receive SBA's written approval of that
plan.
(c) Litigation plan, An Authorized CDC Liquidator and a Lender must obtain SBA's prior approval of a litigation plan before
proceeding with any Non-Routine Litigation, as defined in paragraph (c)(1) ofthis section. SBA's prior approval is not required for
Routine Litigation, as defined in paragraph (c)(2) ofthis section.
(1) Non-Routine Litigation includes:
(i) All litigation where factual or legal issues are in dispute and require resolution through adjudication;
(ii) Any litigation where legal fees are estimated to exceed $10,000;
(iii) Any litigation involving a loan where a Lender orAuthorized CDC Liquidator has an actual or potential conflict of interest
with SBA; and
(iv) Any litigation involving a 7(a) or 504 loan where the Lender or CDC has madea separate loan to the same borrower
https://gov.ecfr.io/cgl-bin/text-idx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&node=sp13.1.120.e&rgn=dlv6

Page 5 of10

eCFR —
Code of Federal Regulatlons

8/23/19, 2:38 PM

which is not a 7(a) or 504 loan.
(2) Routine Litigation means uncontested litigation, such as non-adversarial matters in bankruptcy and undisputed foreclosure
actions, having estimated legal fees not exceeding $10,000.
(d) Decision by SBA to take over litigation. If a Lender or Authorized CDC Liquidator is conducting, or proposes to conduct,
debt collection litigation on a 7(a) loan or 504 loan, SBA may take over the litigation if SBA determines that the outcome of the
litigation could adversely affect SBA's administration ofthe loan program or that the Government is entitled to legal remedies that
are not available to the Lender orAuthorized CDC Liquidator, Examples ofcases that could adversely affect SBA's administration
of a loan program include, but are not limited to, situations where SBA determines that:
(1) The litigation involves important governmental policy or program issues,
(2) The case is potentially of great precedential value or there is a risk of adverse precedent to the Government.
(3) The Lender or Authorized CDC Liquidator has an actual or potential conflict of interest with SBA.
(4) The legal fees ofthe Lender orAuthorized CDC Liquidator's outside counsel are unnecessary, unreasonable or not
customary in the locality.
(e) Amendments to a liquidation orlitigation plan. Lenders and Authorized CDC Liquidators must submit an amended
liquidation or litigation plan to address any material changes arising during the course ofthe liquidation or litigation that were not
addressed in the original plan or an amended plan. Lenders and Authorized CDC Liquidators must obtain SBA's written approval
ofthe amended plan priorto taking any further liquidation or litigation action. Examples ofsuch material changes thatwould
require the approval of an amended plan include, but are not limited to:
(1) Changes arising during the course of Routine Litigation thattransform the litigation into Non-Routine Litigation, such as
when the debtor contests a foreclosure or when the actual legal fees incurred exceed $1 0,000.
(2) If SBAhas approved a litigation plan where anticipated legal fees exceed $10,000, or has approved an amended plan,
and thereafter the anticipated or actual legal fees increase by more than 15 percent.
(3) If SBA has approved a liquidation plan, or an amended plan, and thereafter the anticipated or actual costs of conducting
the liquidation increase by more than 15 percent.
(f) Limited waiverofneed fora written liquidation orlitigation plan. SBA may, in its discretion, and upon request by a Lender
orAuthorized CDC Liquidator, waive the requirements ofparagraphs (b), (c) or (e) of this section, ifone ofthe following
extraordinary circumstances warrant such a waiver: the need for expeditious action to avoid the potential risk of loss on the loan or
dissipation of collateral exists; an immediate response is required to litigation by a borrower, guarantor or third party; or another
urgent reason arises. The Lender orAuthorized CDC Liquidator must obtain SBA'swritten consent to such waiver before
undertaking the Emergency action, ifat all practicable. SBA's waiverwill apply onlyto the specific action(s) which the Lender or
Authorized CDC Liquidator has identified to SBA as being necessary to address the Emergency. The Lender orAuthorized CDC
Liquidator must, as soon after the Emergency as is practicable, submit a written liquidation or litigation plan to SBA or, if
appropriate, a written amended plan, and may not take further liquidation or litigation action without written approval of such plan
or amendment by SBA.
(g) Appeals. A Lender for loans made under its authority as a CLP Lender or an Authorized CDC Liquidator that disagrees
with an SBA office's decision pertaining to an original or amended liquidation plan, other than such portions ofthe plan that
address litigation matters, may submit a written appeal to the D/FAwithin 30 days of the decision, The D/FA or designee will make
the final Agency decision in consultation with the Associate General Counsel for Litigation, A Lender or Authorized CDC Liquidator
that disagrees with an SBAoffice's decision pertaining to an original or amended litigation plan, or the portion of a liquidation plan
addressing litigation matters, may submit a written appeal to the Associate General Counsel for Litigation within 30 days of the
decision. The Associate General Counsel for Litigation will make the final Agency decision in consultation with the D/FA.
[72 FR 18362, Apr. 12, 2007, as amended at 74 FR 45753, Sept. 4, 2009]
i BacktoTop
§120.541 Time for approval by SBA.
(a) Except as set forth in paragraph (c) ofthis section, in responding to a request for approval under §§120.540(b),
https://gov.ecfr.io/cgi-bin/text-ldx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&node=sp13,1.120.e&rgn=div6

Page 6of10

eCFR —
Code of Federal Regulations

8/23/19, 2:38 PM

120.540(c), 120.536(b)(5) or 120.536(b)(6), SBAwill approve or deny the request within 15 business days ofthe date when SBA
receives the request. If SBA is unable to approve or deny the request within this 15-day period, SBA will provide a written nptice of
no decision to the Lender or Authorized CDC Liquidator, stating the reason for SBA's inability to act; an estimate of the additional
time required to act on the plan or request; and, if SBA deems appropriate, requesting additional information.
(b) Except as set forth in paragraph (c) ofthis section, unless SBA gives its written consent to a proposed liquidation or
litigation plan, or a proposed amendment ofaplan, or any ofthe actions set forth in §120,536(b)(5) or §120.536(b)(6), SBAwill not
be deemed to have approved the proposed action.
(c) If a Lender seeks to perform liquidation on a loan made under its authority as a CLP Lender by submitting a liquidation
plan to SBA for approval, SBA will approve or deny such plan within ten business days, If SBA fails to approve or deny the plan
within ten business days, SBAwill be deemed to have approved such plan.
[72FR18362,Apr.12,2007]
i Back to Top
§120.542 Payment by SBA of legal fees and other expenses.
(a) Legalfees SBA willnotpay. (1) SBAwill not pay legal fees or other costs that a Lender orAuthorized CDC Liquidator
incurs:
(i) In asserting a claim, cross claim, counterclaim, orthird-partyclaimagainstSBAorindefenseofanactionbroughtbySBA,
unless payment of such fees or costs is otherwise required by federal law.
(ii) In connection with actions of a Lender or Authorized CDC Liquidator's outside counsel for performing non-legal liquidation
services, unless authorized by SBA prior to the action.
(iii) In taking actions which solely benefit a Lender orAuthorized CDC Liquidator and which do not benefit SBA, as
determined by SBA.
(2) SBA will not pay legal fees or other costs a Lender or CDC incurs in the defense of, or pay for any settlement or adverse
judgment resulting from, a suit, counterclaim or other clalm by a borrower, guarantor, or other party that seeks damages based
upon a claim that the Lender or CDC breached any duty or engaged in any wrongful actions, unless SBA expressly directed the
Lender or CDC to undertake the allegedly wrongful action that is the subject of the suit, counterclaim or other claim.
(b) Legal fees SBA may decline to pay. In addition to any right or authority SBA may have under law orcontract, SBA may, in
its discretion, decline to pay a Lender or Authorized CDC Liquidator for all, or a portion, of legal fees and/or other costs incurred in
connection with the liquidation and/or litigation ofa 7(a) loan or 504 loan under anyofthe following circumstances:
(1) SBA determines that the Lender orAuthorized CDC Liquidator failed to perform liquidation or litigation promptly and in
accordance with commercially reasonable standards, in a prudent manner, or in accordance with any Loan Program Requirement
or SBA approvals of either a liquidation or litigation plan or any amendment of such a plan.
(2) A Lender or Authorized CDC Liquidator fails to obtain prior written approval from SBA for any liquidation or litigation plan,
or for any amended liquidation or litigation ptan, or for any action set forth in §120.536, when such approval is required by these
regulations ora Loan Program Requirement.
(3) If SBA has not specifically approved fees or costs identified in an original or amended liquidation or litigation plan under
§120.540, and SBA determines that such fees or costs are not reasonable, customary or necessary in the locality in question. In
such cases, SBAwill pay only such fees as it deems are necessary, customary and reasonable in the locality in question.
(c) Fees for liquidation actions performed by Authorized CDC Liquidators. Subjectto paragraph (d) ofthis section, SBAwill
compensate Authorized CDC Liquidators for their liquidation actions on 504 loans, whether such actions are performed by the
CDC or the CDC's contractor retained in accordance with §120.975(a)(2) or (b)(2)(ii). The compensation fee will be a percentage
(to be published in the FEDERAL REGISTER from time to time, but not to exceed 10%) ofthe net recovery proceeds realized from the
sate of collateral or other tiquidation actions on an individual loan, up to a fee of $25,000 for such loan, and a lower percentage
(also to be published in the FEDERAL REGISTER from time to time, but not to exceed 5%) of the realized net recovery proceeds above
such amounts. The compensation fee limits set forth in this paragraph (c) do not include reasonable, customary and necessary
administrative costs related to liquidation activities on such loan that are incurred in accordance with the liquidation ptan, or
amendments thereto, approved by SBA pursuant to §120.540(b). The Authorized CDC Liquidator may compensate its contractor
https://gov.ecfr.lo/cgi-bin/text-idx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&node=sp13.1.120.e&rgn=div6

Page 7 of10

eCFR —
Code of Federal Regulations

8/23/19, 2:38 PM

up to the amount it receives from SBA. All requests for compensation fees must be received by SBAwithin nine months from the
date of SBA's purchase of the defaulted debenture. Fee requests not received within such timeframe will be automatically
rejected.
(d) Appeals—liquidationcosts. A Lender or Authorized CDC Liquidator that disagrees with a decision by an SBA office to
decline to reimburse all, or a portion, ofthe fees and/or costs incurred in conducting liquidation may appeal this decision in writing
to the D/FA within 30 days of the decision. The decision of the D/FA or designee will be made in consultation with the Associate
General Counsel for Litigation, and will be the final Agency decision.
(e) Appeals—lifigationcosts. A Lender or Authorized CDC Liquidator that disagrees with a decision by SBA to decline to
reimburse all, or a portion, ofthe legal fees and/or costs incurred in conducting debt collection litigation may appeal this decision
in writing to theAssociate General Counsel for Litigation within 30 days ofthe decision. The decision of the Associate General
Counsel for Litigation will be made in consultation with the D/FA, and will be the final Agency decision.
[72 FR 18362, Apr. 12, 2007, as amended at 74 FR 45753, Sept. 4, 2009]
t BacktoTop
§120.545 What are SBA's policies concerning the liquidation of collateral and the sale of business loans and physical
disaster asslstance loans, physical disaster business loans and economlc injury disaster loans?
(a) Liquidation policy. SBA or the Lender may liquidate collateral securing a loan ifthe loan is in default orthere is no
reasonable prospect that the loan can be repaid within a reasonable period.
(b) Sa/e and conversion ofloans. Without the consent ofthe Borrower, SBA may:
(1) Sell a direct loan;
(2) Convert a guaranteed or immediate participation loan to a direct loan; or
(3) Convert an immediate participation loan to a guaranteed loan or a loan owned solely by the Lender.
(4) Sell direct and purchased 7(a) and 501, 502, 503 and 504 loans and physical disaster home loans, physical disaster
business loans and economic injury disaster loans in asset sales. SBAwill offer these loans for sale to qualified bidders by means
of competitive procedures at publicly advertised sales. Bidder qualifications will be set for each sale in accordance with the terms
and conditions of each sale.
(c) Disposal ofcollateral and assets acquired through foreclosure or conveyance. SBA or the Lender may sell real and
personal property (including contracts and claims) pledged to secure a loan that is in default in accordance with the provisions of
the related security instrument (see §120.550 for Homestead Protection for Farmers).
(1) Competitive bids or negotiated sales. Generally, SBAwill offer loan collateral and acquired assets for public sate through
competitive bids at auctions or sealed bid sales. The Lender may use negotiated sales if consistent with its usual practice for
similar non-SBAassets.
(2) Lease of acquired property. Normally, neither SBA nor a Lender will rent or lease acquired property or grant options to
purchase. SBAand the Lenderwill consider proposals for a lease if it appears a property cannot be sold advantageously and the
lease may be terminated on reasonable notice upon receipt of a favorable purchase offer.
(d) Recoveries and securify interests shared. SBA and the Lender will share pro rata (in accordance with their respective
interests in a loan) all loan payments or recoveries, including proceeds from asset sales, all reasonable expenses (including
advances for the care, preservation, and maintenance of collateral securing the loan and the payment of senior lienholders), and
any security interest or guarantee (excluding SBA's guarantee) which the Lender or SBA may hold or receive in connection with a
loan.
(e) Guarantors. Guarantors of financial assistance have no rights of contribution against SBA on an SBA guaranteed or direct
loan. SBA is not deemed to be a co-guarantor with any other guarantors.
[61 FR 3235, Jan. 31, 1996, as amended at 64 FR 44110, Aug.13,1999; 65 FR 17133, Mar. 31, 2000;68 FR 51680, Aug. 28,2003.
Redesignated and amended at72 FR 18362, Apr. 12,2007]

https://gov.ecfr.io/cgi-bln/text-idx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&node=sp13.1.120.e&rgn=dlv6

Page 8 of 10

eCFR —
Code of Federal Regulations

8/23/19, 2:38 PM

i BacktoTop
§120.546 Loan asset sales.
(a) General. Loan asset sales are governed by §120.545(b)(4) and by this section.
(b) 7(a) /oans—(1)For loans approved on or after May 14, 2007. The Lender will be deemed to have consented to SBA's sale
of the loan (guaranteed and unguaranteed portions) in an asset sale conducted or overseen by SBA upon the occurrence any of
the following;
(i) SBA's purchase of the guaranteed portion of the loan from the Registered Holder for a loan where the guaranteed portion
has been sold in the Secondary Market pursuant to subpart F ofthis part and afterdefault, the Lender has not exercised its option
to purchase such guaranteed portion; or
(ii) SBA's purchase ofthe guaranteed portion from the Lender, provided however, that ifSBApurchased the guaranteed
portion pursuant to §120.520(a)(1)prior to the Lender's completion of liquidation for the loan, then SBAwill not sell such loan in an
asset sale until nine months from the date of SBA's purchase; or
(iii) SBA receives written consent from the Lender.
(2) For loans identified in paragraph (b)(1)(i) ofthis section, the Lender may request thatSBAwithhold the loan from an asset
sale ifthe Lender submits a written request to SBAwithin 15 business days of SBA's purchase ofthe guaranteed portion ofthe
loan from the Registered Holder and ifsuch request addresses the issues described in this subparagraph. The Lender's written
request must advise SBAofthe status ofthe loan, the Lender's plans forworkout and/or liquidation, including and pending sale of
loan collateral or foreclosure proceedings arranged prior to SBA's purchase that already are underway, and the Lender's
estimated schedule for restructuring the loan or liquidating the collateral. SBAwill consider the Lender's request and, based on the
circumstances, SBA in its sole discretion may elect to defer including the loan in an asset sale in order to provide the Lender
additional time to complete the planned restructuring and/or liquidation actions.
(3) For loans approved before May 14, 2007. SBA must obtain written consent from the Lender for the sale of such loans in
an asset sale,
(4) After SBA has purchased the guaranteed portion of a loan from the Registered Holder or from the Lender, the Lender
must continue to perform all necessary servicing and liquidation actions for the loan up to the point the loan is transferred to the
purchaser in an asset sale. The Lender also must cooperate and take atl necessary actions to effectuate both the asset sale and
the transfer ofthe loan to the purchaser in the asset sale.
(c) 504 /oans—(1)PCLP Loans. After SBA's purchase of a Debenture, SBA may at its sole discretion sell a defaulted PCLP
Loan in an asset sale conducted or overseen by SBA, after providing to the PCLP CDC that made the loan advance notice of not
less than 90 days before the date upon which SBA first makes its records concerning such loan available to prospective
purchasers for examination.
(2) All other 504 loans. After SBA's purchase of a Debenture, SBA may at its sole discretion sell a defaulted 504 loan in an
asset sale conducted or overseen by SBA.
[72FR18364,Apr.12,2007]
t BacktoTop
HOMESTEAD PROTECTION FOR FARMERS

t Back to Top
§120.550 What is homestead protection for farmers?
SBA may lease to a farmer-Borrower the farm residence occupied by the Borrower and a reasonable amount of adjoining
property (no more than 1 O acres and seven farm buildings), if they were acquired by SBA as a result of a defaulted farm loan
made or guaranteed by SBA (see the Consolidated Farm and Rural Development Act, 7 U.S.C. 1921, for qualifying loan
purposes),
t Back to Top
https://gov.ecfr.io/cgi-bin/text-idx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&node=sp13.1.120.e&rgn=div6

Page 9 of10

Code of Federal Regulations
eCFR —

8/23/19, 2:38 PM

§120.551 Who is eligibte for homestead protection?
SBA must notify the Borrower in possession ofthe availability of these homestead protection rights within 30 days after SBA
acquires the property. A farmer-Borrower must:
(a) Apply for the homestead occupancy to the SBA field office which serviced the loan within 90 days after SBA acquires the
property;
(b) Provide evidence that the farm produces farm income reasonable for the area and economic conditions;
(c) Show that at least 60 percent ofthe Borrower and spouse's gross annual income came from farm or ranch operations in at
least any two out ofthe last six calendar years;
(d) Have resided on the property during the previous six years; and
(e) Be personally liable for the debt.
t BacktoTop
§120.552 Lease.
Ifapproved, the applicant must personally occupy the residence during the term ofthe lease and pay a reasonable rent to
SBA. The lease will be for a period of at least 3 years, but no more than 5 years. Alease of less than 5 years may be renewed, but
not beyond 5 years from the original lease date. During orat the end ofthe lease period, the lessee has a right offirst refusal to
reacquire the homestead property under terms and conditions no less favorable than those offered to any other purchaser.
t BacktoTop
§120.553 Appeal.
Ifthe application is denied, the Borrower may appeal the decision to the D/FA. Until the conclusion ofany appeal, the
Borrower may retain possession of the homestead property.
i BacktoTop
§120.554 Conflict of laws.
In the event ofa conflict between the homestead provisions at §§120.550through 120.553 ofthis part, and any state law
relating to the right of a Borrower to designate for separate sale or to redeem part or all ofthe real property securing a loan
foreclosed by the Lender, state law shall prevail.
t Back to Top
Need asslstance?

https://gov,ecfr.io/cgi-bin/text-idx?SID=3b9e83883e6f1adffc48cb63cc6fe5aa&mc=true&node=sp13.1.120.e&rgn=dlv6

Page10of10

